HHS/OIG, Audit -"Audit of California's Medicaid Payments for State-Employed Skilled Professional
Medical Personnel for the Period October 1, 2002, Through September 30, 2003,"(A-09-04-00049)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of California's Medicaid Payments for State-Employed
Skilled Professional Medical Personnel for the Period October 1, 2002, Through September 30, 2003," (A-09-04-00049)
August 12, 2005
Complete
Text of Report is available in PDF format (1.82 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We conducted this audit as part of a nationwide review.  Our objective was to determine whether
the California Department of Health Services (California) properly claimed Federal Medicaid funding
at the enhanced rate for skilled professional medical personnel and their supporting staff for the
period October 1, 2002, through September 30, 2003.  Contrary to Federal regulations, California
claimed Federal Medicaid funding at the enhanced rate for: (1) overhead costs not eligible for the
enhanced rate ($4,795,167 Federal share), (2) salaries and other compensation for 43 supporting staff
not directly supervised by skilled professional medical personnel ($352,532 Federal share), and (3)
salaries and other compensation for 13 positions not requiring medical expertise ($147,674 Federal
share).
We recommended that California: (1) refund $5,295,373 for the Federal share of Medicaid overpayments
for skilled professional medical personnel and their supporting staff; (2) strengthen controls to ensure
that costs claimed at the enhanced rate for skilled professional medical personnel do not include overhead
costs, include only supporting staff directly supervised by skilled professional medical personnel,
and are limited to positions that require medical expertise; and, (3) identify and refund the Federal
share of Medicaid overpayments for skilled professional medical personnel and their supporting staff
improperly claimed after September 30, 2003.  California provided extensive written comments on
our draft report, but did not comment on our recommended refund.  We made changes in the final
report to reflect Californias comments.